Annual Report, “Federal Information Security Management Act: Fiscal Year 2005 Report
from the Office of Inspector General” (IG-05-026, September 29, 2005)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. While
NASA’s leadership implemented several IT security improvements and was formulating
plans to address many of the IT security concerns we have raised in past audits and
reviews, many challenges remain. During FY 2005, we found recurring significant
internal control weaknesses related to system administrator roles and responsibilities;
host and network security; IT contingency plan testing and alternate processing facilities;
IT risk assessments; certification of IT systems; vulnerability scanning; and peer-to-peer
file sharing. The NASA Office of Inspector General will continue to focus audit and
investigative resources on protecting the Agency’s information assets.

The OMB’s Federal Information Security Management Act (FISMA) Report to Congress
for FY 2005 includes information provided by our report. Our report contains NASA
Information Technology/Internal Systems Data that is not routinely released under the
Freedom of Information Act (FOIA). To submit a FOIA request, see the online guide.
